OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/SENEGAL’S
YAAJEENDE AGRICULTURAL
DEVELOPMENT PROGRAM
AUDIT REPORT NO. 7-685-14-004-P
AUGUST 8, 2014




DAKAR, SENEGAL

Office of Inspector General


August 8, 2014

MEMORANDUM

TO:                USAID/Senegal Director, Susan Fine

FROM:              Regional Inspector General/Dakar, Abdoulaye Gueye /s/

SUBJECT:           Audit of USAID/Senegal’s Yaajeende Agricultural
                   Development Program (Report No. 7-685-14-004-P)

This memorandum transmits our final report on the subject audit. This report contains no
recommendations because the audit determined the program was on track to achieve its goals.
We have considered your comments on the draft report and included them in Appendix II.

Thank you for the cooperation and courtesy extended to the team during this audit.




U.S. Agency for International Development
American Embassy Dakar
Route des Almadies
B.P. 49
Dakar, Senegal
http://oig.usaid.gov
CONTENTS 

Summary of Results ................................................................................................................... 1 


Audit Finding ............................................................................................................................... 4 


     Program Was on Track to Achieve Its Goal ............................................................................ 4 


Evaluation of Management Comments................................................................................... 13 


Appendix I—Scope and Methodology .................................................................................... 14 


Appendix II—Management Comments ................................................................................... 16 

SUMMARY OF RESULTS
About 47 percent of Senegal’s 13 million people live below the poverty line,1 rendering
14 percent of children less than 5 years old underweight.2 According to USAID/Senegal’s
analysis in 2010, about 68 percent of Senegal’s labor force works in the agriculture sector, yet it
generates only around 14 percent of gross domestic product. The Government of Senegal,
which according to USAID increased its investment in agriculture by more than 10 percent per
year from 2005 to 2010, is working to make the agriculture sector a source of food security3 and
a primary driver for economic growth.

To help Senegal achieve food security, on November 1, 2010, USAID/Senegal awarded the
Cooperative League of the USA, doing business as the National Cooperative Business
Association (referred to hereafter as CLUSA or the implementer) a 5-year, $40 million
cooperative agreement to implement the Yaajeende4 Agricultural Development Program. As of
September 30, 2013, the mission had obligated $18.8 million and disbursed $18.6 million for the
program, which intervened in the areas shown with shaded circles in the map below.




          Source: CLUSA.

1
  World Bank, Senegal Overview, http://www.worldbank.org/en/country/senegal/overview, last updated

April 2014 and accessed on June 17, 2014. 

2
  2010-11 Senegal Demographic and Health and Multiple Indicators Survey, Senegal National Agency for 

Statistics and Demography. 

3
  According to The State of Food Insecurity in the World, 2012, food security refers to people’s ability to
get enough safe, nutritious food to live active and healthy lives; food insecurity is the inability to do so.
4
  In Pulaar, the language in the targeted areas, yaajeende means abundance or prosperity of something
as a result of the concerted efforts of people.

                                                                                                          1
The objectives of the program are to (1) integrate the very poor into agricultural markets and the
rural economy, (2) improve the nutritional status of women and children, and (3) increase
household assets and income among those not able to participate in rural economic activities. In
essence, the program goals are to improve food security and reduce undernutrition in targeted
areas within Senegal.

CLUSA is working to meet these objectives by implementing activities designed to promote the
following:

1.   Availability. Increase the availability of food through greater agricultural productivity.
2.   Access. Increase access to quality products and services.
3.   Better Use. Promote better use of available food and potable water to improve nutrition.
4.   Sustainable governance. Ensure sustainable local governance of food and water.

These four areas encompass work on crosscutting objectives: building local capacity and
integrating and empowering women.

The Regional Inspector General/Dakar (RIG/Dakar) conducted this audit as part of its fiscal year
2014 audit plan to determine whether USAID/Senegal’s Yaajeende Agricultural Development
Program was achieving its goals. The audit found the program was on track to achieve them.

Availability. As of September 2013, farmers had produced 5,031 metric tons of grain,
1,946 metric tons of sorghum (400 percent above the average production), 2,052 metric tons of
commercial vegetables, and 181 metric tons of vegetables from family gardens. Further, the
program had more than 45,000 beneficiaries applying new farming technologies or
management practices. Several farmers we interviewed said the technologies have significantly
increased their production. The manager of a commercial garden in Matam said an irrigation
technique from the program has increased his production, helped diversify his crops, and
reduced his labor costs.

Access. Program staff have developed a local network of about 250 entrepreneurs who act as
sales agents or agriculture extension agents (hereafter called agents), linking agricultural
products and services of urban agribusinesses with consumers in rural areas. The agents let
rural growers and producers know what buyers of their goods are looking for, in addition to
linking rural producers to quality inputs. We interviewed 20 agents who all said the program
significantly increased their incomes as well as those of members of their communities.

Better Use. As of September 2013, mother-to-mother groups, developed as an integral part of
the program, had conducted more than 14,662 meetings reaching 147,751 participants—among
them 79,397 breastfeeding women, 24,371 pregnant women, and 22,205 adolescents. These
meetings are for women to discuss and promote better nutrition practices, health, and good
hygiene. In addition, the program helped create 6,000 family gardens in 132 villages that are
growing nutrient-rich vegetables. We visited three family gardens where women were growing
carrots, sorghum, eggplants, peppers, and onions. The women said they were able to feed their
families and sell excess produce in the local market.

Sustainable Governance. The program provided in-depth trainings on food security to the
25 local governments in its intervention zones. Furthermore, the program helped 19 of these
25 communities develop and implement strategic frameworks for food security. In these
strategies, local government officials and citizens laid out their communities’ needs for food
security, how they planned to meet those needs and by when, and how they would monitor

                                                                                                  2
progress. In addition, the program helped all 25 communities form citizen working groups to
carry out the activities listed in the frameworks and advocate for women’s access to land.

Our detailed finding follows. The audit scope and methodology are described in Appendix I. Our
evaluation of management comments is on page 12, and the full text of management comments
is included in Appendix II.




                                                                                            3
AUDIT FINDING
Program Was on Track to Achieve Its Goals
Program staff were working to meet the goals by implementing activities that promote the
following:

1.   Availability. Increase the availability of food through greater agricultural productivity.
2.   Access. Increase access to quality products and services.
3.   Better Use. Promote better use of available food and potable water to improve nutrition.
4.   Sustainable governance. Ensure sustainable local governance of food and water.

These four areas encompass work on crosscutting objectives: building local capacity and
integrating and empowering women.

The audit found that the program was on track to achieve its goals, with the following
accomplishments.

Availability

The program has made food more available by boosting production and increasing the capacity
of organizations and government agencies.

Boosting Production. According to program records as of September 30, 2013, farmers had
produced 5,031 metric tons of grain, 1,946 metric tons of sorghum (400 percent above the
average production), and 2,052 metric tons of commercial vegetables—beans, carrots,
cabbage, eggplants, okra, onions, orange sweet potatoes, and tomatoes. Further, the program
implemented 6,000 family gardens in 132 villages, producing 181 metric tons of vegetables.

The program taught farmers new technologies. More than 45,000 program beneficiaries were
applying new farming technologies or management practices. Farmers were trying conservation
agriculture, which consists of deep soil ripping, using decomposed compost or manure, small
doses of chemical fertilizer, and improved short-cycle seeds. According to program officials,
crops cultivated with this technology are able to grow and produce without rainfall for up to a
month. Program staff saw positive results in Kédougou, Bakel, and the southern parts of Matam.
Several farmers who applied multiple techniques said their production had increased, as shown
on the following page.




                                                                                                  4
Traditional farming methods yielded the results at left; a conservation agriculture technique, deep
soil ripping, was applied to the field that thrives at right. Both views show maize after a 1 month
pause in rainfall in Kédougou. (Photos by CLUSA, September 2013)

Another irrigation technique the program introduced is ségué bana.5 Farmers were shown how
to install and use a water pump, dig irrigation canals, and divide farm land into certain number of
tracts to make full use of the pumped water. This technique transports water throughout the
gardens using underground pipes, reducing manual labor and water loss from evaporation. The
manager of a commercial garden in Matam (shown below) said this technology had increased
his production, helped diversify his crops, and reduced his labor costs. Through the program,
the owner obtained a loan from a microfinance institution and bought a motorized water pump.
He is now growing onions, peppers, cabbages, eggplants, and tomatoes. According to program
officials, the new method decreases the labor required for manually watering crops by up to
40 percent, whereas surface irrigation systems reduce labor by just 25.




     Onions, peppers, cabbages, eggplants, and tomatoes grow in this commercial garden in the
     Matam Village of Ndouloumadji Dembé, where the farmer applied ségué bana. (Photo by
     RIG/Dakar, April 2014)


5
    Ségué bana is a Pulaar phrase that means “the work is finished.”

                                                                                                  5
Furthermore, the program has helped growers increase production of rain-fed crops such as
millet, maize, sorghum, and rice through new farming practices, improved seeds, and regular
monitoring of crops. After program intervention, crop production improved between 30 percent
and 54 percent for maize, depending on the zone; 66 percent for rice; and 30 percent for
sorghum.

Building Local Capacity. Program staff were working with local organizations and
associations, private companies, local government, and entrepreneurial agents to build their
capacity to develop and carry out food security activities. Of the 750 organizations targeted to
apply improved technologies and practices, the program had reached 585 or 78 percent as of
Year 3. Program officials signed contracts totaling about $1 million with local partners for
technical trainings, product research and development, evaluation of project interventions, and
coaching of farmers.

	 Organizations. Program officials trained representatives of organizations on various
    agriculture techniques and practices so that these people could in turn train their members.
    One representative of a local partner told us 67 members of his organization were trained to
    use new techniques. These members in turn trained 3,328 farmers in flood recession
    farming and 2,500 farmers in rain-fed farming techniques.

    In addition, the program trained local organizations to streamline their administration and
    governance structure and gave them equipment such as computers, photocopiers, global
    positioning systems, cameras, and trainings on how to monitor and evaluate program
    activities.

	 Government agencies. The program was building the institutional and technical capacity of
    local government agencies. These agencies were providing farmers with biofortified seeds,6
    short-cycle seeds, plant grafting, in vitro plants, and other high-nutrient vegetables and fruits
    that are resilient to climatic changes. For example, during Year 2, staff helped one
    government agency by equipping two of its research locations with new state-of-the-art drip
    irrigation systems to help increase their plant production. In the same year, one location
    provided at least 14,000 graft plants for program activities.

    With program help another division of this government agency did plant multiplication
    through in vitro technology. Plants provided through this technology include orange sweet
    potato rich in vitamin A (pictured on the next page) and banana plants rich in potassium and
    vitamin C. The program introduced seven varieties of sweet potatoes through this agency,
    which produced 1,328 plant cuttings that were multiplied to produce 8,800 plants. In
    addition, according to program officials, in Year 2, a banana producer purchased 1,000 in
    vitro banana plants for his commercial garden, and in Year 3, this agency delivered
    1,875 plants to program sites in Matam and Kédougou.




6
 The World Health Organization explains that biofortification is increasing the vitamin and mineral content
of food—e.g., the iron and zinc content of sweet potato—through plant breeding or biotechnology. It
differs from fortification in that it is part of the growing process rather than part of processing.

                                                                                                         6
At left, sweet potato plants grow in a women-owned commercial garden in the Matam Village of
Doumnga Ouro Alpha; at right, a grower shows off the orange flesh of the sweet potato. (Photos
by RIG/Dakar and CLUSA, April 2014)

   Further, one of the government research location equipped with a state-of-the-art drip
   irrigation system is, for the first time, supplying plants to private sector companies. This
   location produced 15 varieties of mangos; 16 citrus fruits; 4 apple varieties grown in the
   Sahel region, the desert area stretching from Senegal to Sudan; and 3 varieties of sweet
   tamarind. The program did face some challenges in grafting apples from the Sahel region
   because pests and wild animals damaged the grafts. In fact, only one variety of apples
   adapted to the local conditions resulting in a success rate of 15 percent, compared with the
   normal success rate of 60 percent. In Year 3, the program changed its strategy and
   achieved a 98 percent success rate in Kédougou and 69 percent in Bakel.

   The program partnered with another local government agency to transfer improved research
   and development and agricultural techniques. The director of this agency said the program
   showed his staff how to manufacture a better fertilizer, which the agency now produces and
   sells. Also, he said his agency is researching a type of onion that can be grown year-round
   in Matam, where rainfall levels are insufficient.

Access

Establishing Entrepreneurial Agents. The program has developed a community-based
network of entrepreneurs into sales agents linking private sector product and service providers
to consumers in rural areas. In Year 2, program staff identified and trained more than
650 agents in irrigation and maintenance services, the making of specialized agricultural tools,
crop and livestock maintenance, seed and nursery plant production, grafting services, and the
nutrition benefits of various products. These agents also received training in basic business
skills—bookkeeping and financial management, negotiating techniques, and networking. The
program linked the agents with private firms for technical trainings about the firms’ specific
products. Agents now know all about the products they sell and can explain the benefits to
consumers.




                                                                                                 7
During Year 3, the program ceased working with agents who were not successful because of
graft or other issues and concentrated on working with about 250 agents to improve their quality
of service and professionalism. This smaller group has taken advantage of the training and
shown impressive initiative. In fact, program officials said agents were proactively identifying
niche markets they could work in, like managing the leasing of water pumps.

We interviewed 20 agents who all said the program had significantly increased their incomes
and those of members of their communities. For example:

	 A successful entrepreneur in Kédougou had previously been a temporary worker earning
   about $275 a month. However, over the past 2 years he made sales of about $92,000 and
   said he built his own house with the profit.

	 A female entrepreneur said that through the program she has learned about new types of
   seeds, mastered producing enriched flour, and developed business skills. She now sells
   seeds and produces and sells enriched flour, creating job opportunities for five members of
   her community with whom she has shared what she learned. She recorded sales of about
   $58,000 over the past 2 years.

Making Loans Available. In addition to creating networks and partnerships with suppliers, the
program negotiated and formalized partnerships with three microfinance institutions to improve
beneficiaries’ access to credit. During Year 2, microfinance institutions provided loans totaling
about $215,000 to 178 applicants. In Year 3, 225 applicants received loans totaling about
$600,000. The program was significantly behind in reaching its end-of-program goal of
$5 million. Program officials said helping beneficiaries gain access to credit was difficult
because banks are few, and beneficiaries have no credit history and often lack collateral. In
addition, the representative of a microfinance institution said sometimes borrowers do not repay
loans because they did not fully understand the terms of loans when they applied for them or did
not generate enough money from their harvest.

Program staff were working to find solutions to address these problems. For example, during
Year 3, staff linked beneficiaries with a government organization providing crop and livestock
insurance at a reasonable cost. According to program officials, they were working with the
microfinance institution to revise loan applications to state that the insurance provider will repay
the loan if the farmer has a bad harvest.

Integrating and Empowering Women. Program officials said that from the start of the
program, they hired women to implement it. Women held 40 percent of the program’s leadership
positions and 25 percent of program positions. Also, 25 percent of the agents were women, and
25 percent of the community working groups’ members were women.

The program has integrated and empowered women by building their knowledge of nutrition and
agriculture, making them gatekeepers of key technologies such as biofortified millet and orange
sweet potatoes, helping them gain access to land for gardens, ensuring they have an equal
voice during governance activities, and training them in agribusiness functions such as food
processing and storage.

One woman representing a commercial garden owned by 65 women said before the program’s
intervention the garden produced very little. Through the program, these women received
training, gardening tools, and biofortified seeds and plants (such as two variations of sweet


                                                                                                  8
potatoes and beans). Agents also provided the women with crop maintenance and other
services that they did not have access to before. Moreover, the program showed them how to
dry onion, mill and enrich flour, and make jams, allowing them to preserve and sell a percentage
of their harvest while still providing for their families. In addition, this garden (shown below) is
providing jobs for some women who said they had never worked outside their homes.




Women show RIG/DAKAR the various crops growing in their commercial garden in the
Matam Village of Doumnga Ouro Alpha, where the program provided them with several
types of trainings, tools, seeds, plants, and fencing. (Photo by RIG/Dakar, April 2014)

Another intervention to empower women under the program is reclaiming degraded land. With
the assistance of the program, 52 sites covering 80 hectares of land were reclaimed with about
3,954 women benefiting from this intervention.

Better Use

As of September 2013, mother-to-mother groups, developed as an integral part of the program,
had conducted more than 14,662 meetings. The groups had 147,751 participants, including
79,397 breast-feeding women, 24,371 pregnant women, and 22,205 adolescents. Further, over
the past 3 years, community nutrition volunteers prepared 6,888 community meals for 77,100
women and 3,697 men. The program is using community meals to show beneficiaries how to
combine various biofortified vegetables with traditional foods to improve the nutrition of children
and women of childbearing age. Moreover, to provide families with access to nutrient-rich
vegetables, the program has helped create 6,000 family gardens across 132 villages.

We visited three family gardens where women were growing carrots, sorghum, eggplants,
peppers, and onions. Women were trained to produce enriched flour and fruit preserves from
their crops. Pictures on the next page show a family garden and a display of enriched flour and
fruit preserves that women made as part of the program.




                                                                                                  9
           This family garden in the Matam Village of Ndouloumadji Dembé is growing
           peppers, onions, and eggplants. (Photo by RIG/Dakar, April 2014)




Women in the Matam Village of Ndouloumadji Dembé display enriched flour and fruit preserves
they made with the support of the program. (Photo by RIG/Dakar, April 2014)



                                                                                        10
Furthermore, the program placed 4,548 goats (some of which appear in the photo below) and
chickens with 1,555 women involved in the program. The women are expected to give the
offspring of the animals to other women in the same community. This program has provided not
only milk, eggs, and meat for their families but also revenue from the sale of excess production.
During our visit, all the women expressed their appreciation for the program.




      Mother-to-mother groups in the Matam Village of Loumbal Baladji gathered
      together goats provided to them through the program to show RIG/Dakar.
      (Photo by RIG/Dakar, April 2014)

Moreover, the program seeks to change the behaviors of its beneficiaries and strengthen their
adoption of better practices in nutrition and health, such as breast-feeding their babies
exclusively for the first 6 months. During interviews with RIG/DAKAR, several mothers were
breast-feeding, and they credited the nutrition workshops with teaching them the importance of
doing so and of selecting nutrient-rich vegetables for their children.

Sustainable Governance

The program has provided in-depth training on food security to the 25 assisted local
governments. Further, the program helped 19 of its 25 targeted communities develop and
implement strategic frameworks for food security. In these strategies, local government officials
and citizens laid out what their community needs for food security, how they will meet the needs
and by when, and how they will monitor progress.

In addition, the program helped the 25 communities form working groups. These groups, made
up of local government officials and citizens, are involved in many functions—planning,
advocating, and helping do the framework activities and advocating for women’s access to land.
For example, a woman we met said that through the program she learned how to communicate
with local government officials and other parties, speak publicly, and take on leadership roles. In
fact, through the work of the citizen working groups, 61 mother-to-mother groups gained formal
access to a total of 107 hectares of land (approximately 264 acres) and were planting and
harvesting crops for their families. Also, to help build public trust, the program taught some
working groups and local government officials how to develop transparent processes and

                                                                                                11
procedures for public meetings and budget planning.

A member of a group we met said he was trying to find ways to generate revenues to continue
trainings provided by the program. According to program officials, the working groups suggested
collecting fees from members. Before they do, they need to prove they can deliver results for
their members, officials noted. Nevertheless, officials said they would continue to support these
groups’ efforts to become more professional and self-sustaining.

The program was on track to achieve its goals because of the mission and CLUSA’s approach
to developing sustainable activities in the program, collecting baseline data and conducting
gender integration studies, and mission officials’ active management of the program.

First, mission officials required the implementer to include sustainable activities as part of the
program design. According to the agreement officer’s representative (AOR), the program is
using three methods to ensure activities are sustainable: (1) building the local private sector
through trainings for entrepreneurs and links to resources and markets, (2) working with mother­
to-mother groups to communicate the importance of the health benefits of exclusive breast­
feeding for babies less than 6 months old and preparing nutrient-rich foods for their families, and
(3) developing community members’ skills to manage and monitor their local government’s
approach to food security and nutrition issues. Moreover, the AOR added that the program
activities are jointly implemented with community organizations, local governments, and
producer organizations to help build their capacity.

Second, CLUSA collected and studied detailed baseline data. CLUSA and the mission have
used the data to measure the impact of the program. Furthermore, the CLUSA conducted
gender integration studies within the targeted zones to ensure activities are inclusive.

Third, mission officials are actively involved in managing the program. They meet in person with
CLUSA officials to discuss the annual work plans as well as the quarterly and annual results.
The AOR performs regular site visits to program sites and gives CLUSA feedback on activities
that are going well and those that need to be improved. Moreover, CLUSA is proactive in
changing activities that are not helping the beneficiaries. For example, during our visit to the
northern parts of Matam, many farmers said they couldn’t apply conservation agriculture in their
areas or that it was too costly. CLUSA has since stopped conservation agriculture training in this
area of Matam because the technique needs more rainfall than this part of Matam gets.

Addressing local demand, building the capacity of beneficiaries and organizations, and ensuring
local governments support the program are key elements to ensuring sustainability. Moreover,
this program is aligned with the mission’s country development cooperation strategy, which
focuses on activities that provide the greatest impact and help the country address its
development objectives. Because the program is on track, we do not have recommendations.




                                                                                                12
EVALUATION OF
MANAGEMENT COMMENTS
USAID/Senegal officials reviewed the draft report and did not have any questions or
clarifications. Mission officials did ask that we revise a sentence on page 11 regarding the
program’s activity about breastfeeding. We revised the final report to include the mission’s
comment.




                                                                                         13
                                                                                      Appendix I



SCOPE AND METHODOLOGY
Scope
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions,
in accordance with our audit objective. We believe that the evidence obtained provides that
reasonable basis

The purpose of this audit was to determine whether the program was achieving its goals to
improve food security and reduce undernutrition in the program’s targeted areas. The mission
awarded CLUSA a 5-year cooperative agreement for $40 million on November 1, 2010. As of
September 30, 2013, the mission had obligated $18.8 million and disbursed $18.6 million.

The audit team tested activities in four areas designed to achieve the goal. Because CLUSA
does not track program expenditures by these four areas, the amount tested for this audit
cannot be determined.

The audit tested program activities implemented between October 1, 2011, and September 30,
2013. In planning and performing this audit, we obtained an understanding of the program
design, objectives, activities, and management oversight controls at the mission and CLUSA.
We tested the operating effectiveness of the following significant internal controls: mission’s
review and approval of annual work plans and program performance reports; documentation of
site visits the mission conducted; CLUSA’s review, approval, and awarding of subcontracts; and
documentation and data verification of reported program results.

We conducted audit fieldwork from April 7 to 30, 2014, at USAID/Senegal and CLUSA’s office in
Dakar. In addition, we conducted site visits to the project’s regional office in Matam, a local
partner’s office, a local government agriculture agency, a microfinance office, and project sites
in the Matam villages of Doumnga Ouro Alpha, Doumnga Ouro Thierno, Dabia, Ndouloumadji
Dembé, and Loumbal Baladji.

Methodology
To answer the audit objective, we obtained an understanding of the AOR’s and CLUSA’s
oversight functions; program activities and expected results; and benefits provided to various
organizations, government agencies, and beneficiaries. We reviewed and assessed
documentation provided by USAID/Senegal and CLUSA that included the mission’s internal
control assessment, program design documents, agreements and subsequent modifications,
annual work and performance management plans, site visit documents, subgrants, and
subcontracts.

To assess whether the program was achieving its goal, we validated reported results,
corroborated the results with beneficiaries through interviews and observations, and assessed
the program’s progress toward achieving its targeted results as of September 30, 2013.



                                                                                              14
                                                                                        Appendix I


First, we coordinated with the AOR to identify indicators the mission considered key measures
to achieving the program goal. We judgmentally selected eight indicators to test, taking into
consideration the input of the AOR, the type of indicator (i.e., impact, outcome, output, or input),
and whether the indicator is part of the mission’s country development cooperation strategy and
Feed the Future initiative standard indicators.

For the eight indicators selected, we selected samples or did testing as follows:

	 For four indicators with populations that included more than 25 items, statistical samples.

	 For one indicator with a population of less than 25 items, the full population.

	 For three indicators on which data came from a survey, we assessed the reasonableness of
   the methodology and approach used for conducting the surveys.

The statistical samples were selected using a 95 percent confidence interval with a 5 percent
error rate and 4 percent variation. Therefore, results for each indicator can be generalized to the
full population of that indicator.

Second, we conducted interviews with employees of CLUSA, local organizations, and more
than 100 beneficiaries to validate program results reported—trainings conducted, techniques
applied, goods or services provided to beneficiaries, products produced and sold by
beneficiaries, and beneficiaries’ ability to sustain the activities provided. We also conducted
interviews with direct beneficiaries—women, farmers, and local organizations—to verify that the
activities were satisfying their needs.

Furthermore, we interviewed mission officials and CLUSA employees to ensure that the
program met gender equality, counter-trafficking-in-persons, and sustainability requirements. In
addition, we reviewed applicable laws and regulations; USAID policies and procedures
regarding the program, including Automated Directives System Chapters 200 through 203 and
205; and the agreement and modifications.




                                                                                                 15
                                                                                      Appendix II



MANAGEMENT COMMENTS 



                                      MEMORANDUM

DATE:         July 16, 2014

TO:           Abdoulaye Gueye, Regional Inspector General/Dakar

FROM:         Susan Fine /s/, Mission Director, USAID/Senegal

REF:          RIG/Dakar Draft Audit Report No. 7-685-14-0XX-P



 This memorandum transmits USAID/Senegal’s management comments to the subject
 RIG/Dakar Draft Audit Report. Thank you for sharing the draft report and providing us the
 opportunity to offer comments. We view audits as an opportunity to improve USAID
 programming and accountability.

 We have reviewed the draft audit report and have no comments or requests for clarifications.
 We do have one suggested edit (on page 11), we recommend changing, "The program is also
 encouraging mothers to breast-feed their babies exclusively for the first 6 months," to "The
 Program seeks to change behaviors and strengthen adoption of better practices in nutrition
 and health, such as encouraging mothers to breast-feed their babies exclusively for the first 6
 months. "




                                                                                               16
U.S. Agency for International Development 

       Office of Inspector General 

      1300 Pennsylvania Avenue, NW 

          Washington, DC 20523 

            Tel: 202-712-1150 

            Fax: 202-216-3047 

           http://oig.usaid.gov
